Semiannual Report to Congress
April 1, 2011 – September 30, 2011



                                 November 2011




   Federal Election Commission - Office of Inspector General
          999 E Street, N.W. Suite 940, Washington, D.C. 20463
April 1, 2011 - September 30, 2011




                                      FEDERAL ELECTION COMMISSION
                                      WASHINGTON, D.C. 20463




             OFFICE OF THE CHAIRMAN
                                                                          November 16, 2011

                       The Honorable John A. Boehner
                       Speaker of the House of Representatives
                       Washington, D.C. 20515

                       Dear Mr. Speaker:

                       	      Pursuant to the Inspector General Act of 1978, as amended, the Federal Election
                       Commission submits the Office of Inspector General’s Semiannual Report to Congress.
                       The report summarizes the activity of the FEC Office of Inspector General (“OIG”)
                       from April 1, 2011 through September 30, 2011. During this reporting period, the FEC’s
                       Inspector General commenced, with the assistance of contract auditors, the annual audit
                       of the FEC’s financial statements. The audit was completed on time and management
                       issued the final Performance and Accountability Report on November 15, 2010. We are
                       pleased to report that the Commission received an unqualified opinion from the Inspector
                       General’s independent auditors. We will provide additional comments on this audit in the
                       next Semiannual Report to Congress.

                       During the semiannual period, the OIG completed, with the assistance of contract
                       auditors, the 2010 Follow-Up Audit of Procurement and Contract Management. This
                       follow-up audit was released in June 2011. Management’s responses to the findings and
                       recommendations are discussed in detail in that follow-up audit report.

                       The Commission appreciates and shares the Inspector General’s commitment to sound
                       financial and management practices, and looks forward to continuing its cooperative
                       working relationship as management takes appropriate measures to improve operations
                       of the Commission. Copies of the Semiannual Report to Congress are being provided to
                       the Chairmen and Ranking Members of the FEC’s oversight committees.

                                                                 On behalf of the Commission,




                                                                 Cynthia L. Bauerly
                                                                 Chair

                       Enclosure




                                                                                                                  i
                                                            Office of Inspector General Semiannual Report to Congress




                                                MANAGEMENT REPORT ON
                        INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
                             FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2011




                                                       Number of Reports   Questioned Costs   Unsupported Costs

     A. Reports for which no management decision has          0                   0                  [0]
        been made by commencement of the reporting
        period


     B. Reports issued during the reporting period            0                   0                  [0]


        Subtotals (A + B)                                     0                   0                  [0]


     C. Reports for which a management decision was           0                   0                  [0]
        made during the reporting period


        (i) Dollar value of disallowed costs                  0                   0                  [0]

        (ii) Dollar value of costs not disallowed             0                   0                  [0]


     D. Reports for which no management decision has          0                   0                  [0]
        been made by the end of the reporting period




     E. Reports for which no management decision was          0                   0                  [0]
        made within six months of issuance




ii
April 1, 2011 - September 30, 2011




                                               MANAGEMENT REPORT ON
                                       INSPECTOR GENERAL ISSUED REPORTS WITH
                                    RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
                                  FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2011




                                                                                                         Funds to be
                                                                                   Number of Reports
                                                                                                       Put To Better Use

          A.   Reports for which no management decision has been made by the              0                   0
               commencement of the reporting period


          B.   Reports issued during the reporting period                                 0                   0


          C.   Reports for which a management decision was made during the                0                   0
               reporting period


               (i) Dollar value of recommendations that were agreed to by                 0                   0
                management

               - Based on proposed management action                                      0                   0

               - Based on proposed legislative action                                     0                   0


               (ii) Dollar value of recommendations that were not agreed to by            0                   0
                management

          D.   Reports for which no management decision has been made by the end          0                   0
               of the reporting period


          E.   Reports for which no management decision was made within six               0                   0
               months of issuance




                                                                                                                           iii
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




iv
April 1, 2011 - September 30, 2011




                                       FEDERAL ELECTION COMMISSION
                                       WASHINGTON, D.C. 20463
                                       Office of Inspector General



                                              A Message from the Inspector General



                    During the last six months, the Federal Maritime Commission Office of Inspector
                    General conducted a peer review on the Federal Election Commission Office of Inspector
                    General. I am happy to announce that we received a peer review rating of pass. The
                    system of quality control which encompasses the OIG’s organizational structure and
                    policies adopted and procedures established to provide it with reasonable assurance of
                    conforming to Government Auditing Standards is reviewed during the peer review
                    process. I would like to congratulate the OIG staff who ensures that all of our work
                    follows established policies and procedures and continues to produce significant work
                    products that aid the Federal Election Commission in meeting its mission in an efficient
                    and effective manner. We also conducted a peer review of the Commodity Futures
                    Trading Commission Office of Inspector General during this reporting period.
                    Additional information concerning these two peer reviews can be found in Appendix A
                    of this report.

                    I would also like to welcome a new auditor, Shellie Purnell-Brown who joined our staff
                    this summer. She has already proven to be an asset to the office. The staff of the OIG
                    continues to produce quality products in every discipline. I look forward to the next six
                    months working alongside these dedicated people.




                    Lynne A. McFarland
                    Inspector General
                    Federal Election Commission

                    October 28, 2011




                                                                                                                v
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




vi
April 1, 2011 - September 30, 2011




                                                         Table of Contents



      Executive Summary	                                                                 1
      The Federal Election Commission 	                                                  3
      Office of Inspector General	                                                       4
      OIG Audit Activity	                                                                5	
      OIG Audit Follow-up Activity	                                                      6
      OIG Inspections	                                                                   7
      OIG Hotline Information	                                                           9
      OIG Investigations	                                                               11
      Additional OIG Activity	                                                          12
      Council of the Inspectors General on Integrity and Efficiency (CIGIE) Activity	   13
      OIG Contacts	                                                                     14
      List of Training, Meetings and Conferences Attended by OIG Staff	                 15
      Reporting Requirements 	                                                          17
      Table I –	 Questioned Cost	                                                       18
      Table II – 	Funds Put To Better Use	                                              19
      Table III – Summary Of Audit Reports With	                                        20
                  Corrective Actions Outstanding For More Than Six Months
      Appendix A: Peer Review Results	                                                  21
      Appendix B: OIG Fiscal Year 2012 Work Plan	                                       23




                                                                                              vii
                     Office of Inspector General Semiannual Report to Congress




This Page Intentionally Left Blank
April 1, 2011 - September 30, 2011




                                                             Executive Summary



 The Inspector General Act of 1978, as amended,          The OIG also completed a follow-up audit on pro-
 states that the Inspector General is responsible for    curement and contract management. The 2010
 conducting audits, inspections, investigations, and     Follow-up Audit of Procurement and Contract
 recommending policies and procedures that pro-          Management – OIG-10-02 was conducted by Cherry
 mote economic, efficient, and effective use of agency   Bekaert & Holland, LLP (CBH). The audit objectives
 resources and programs that prevent fraud, waste,       were to determine whether management implement-
 abuse and mismanagement. The IG act also requires       ed the agreed upon actions for each of the fifteen
 the Inspector General to keep the Commission and        (15) recommendations and whether the nine (9) find-
 Congress fully and currently informed about prob-       ings had been fully resolved. CBH selected a sample
 lems and deficiencies in the Commission’s opera-        of procurement actions to test and interviewed staff
 tions and the need for corrective action.               to determine if the recommendations were fully im-
                                                         plemented. Testing revealed that only three (3) of the
 This semiannual report includes the major accom-        fifteen (15) recommendations had been fully imple-
 plishments of the Federal Election Commission           mented and several other recommendations were
 (FEC) Office of Inspector General (OIG), as well as     added to the follow-up audit. For detailed information
 relevant information regarding additional OIG activi-   regarding the 2010 Follow-up Audit of Procurement
 ties. The executive summary highlights the most         and Contract Management, see the section entitled
 significant activities of the OIG. Additional details   OIG Audit Follow-up Activity (starting on page 6).
 pertaining to each activity (audits, hotline, and in-
 vestigations) can be found in subsequent sections of    In addition to the contract audits, the OIG is in the
 this report.                                            process of conducting an inspection of the FEC’s
                                                         Kastle Key system. The OIG met with the Manager
 The OIG has exercised another option year with          of the Administrative Services Division along with
 Leon Snead & Company (LSC) to conduct the FEC’s         Kastle Key administrators to gain an understanding
 2011 Financial Statement Audit. LSC has completed       of the day to day business processes for managing
 the planning phase, review and evaluation phase,        the Kastle Key function. The OIG made requests for
 and the interim testing phase of the 2011 audit. The    report data and management’s policies and proce-
 OIG has provided continuous monitoring throughout       dures to review the adequacy, effectiveness, and ef-
 the audit process and conducted bi-weekly status        ficiency of management’s overall business process-
 meetings with management and LSC. At the comple-        es, Kastle Key data, and monitoring procedures. The
 tion of the interim testing phase, the auditors have    OIG reviewed the documentation and conducted fol-
 issued twelve (12) notice of findings and recommen-     low-ups via meetings and e-mails with management
 dations to management. The auditors will be com-        regarding the provided information. The OIG current-
 pleting final testing during the month of October and   ly has a status meeting scheduled with management
 providing the final deliverables to the OIG with the    to discuss the preliminary issues identified. For de-
 anticipation of a final audit report being released     tailed information pertaining to the OIG’s Kastle Key
 November 14, 2011.                                      Inspection, see the section entitled OIG Inspections
                                                         (starting on page 7).
 For detailed information pertaining to the FEC’s 2011
 Financial Statement Audit, see the section entitled     The evaluation process of hotline complaints are
 OIG Audit Activity (starting on page 5).                conducted by the Chief Investigator and the Deputy


                                                                                                              1
                                                         Office of Inspector General Semiannual Report to Congress




Inspector General. During the semiannual reporting
period, the OIG received two (2) new hotline com-
plaints in which one (1) hotline complaint developed
into an investigation. Further, one (1) hotline com-
plaint the OIG opened prior to the current semiannu-
al reporting period, was closed. For details regarding
the FEC OIG’s hotline complaints, see the section
entitled OIG Hotline Information (starting on page
9).

In addition, the OIG has incorporated a new ho-
tline system for FEC contractors and FEC em-
ployees to anonymously report fraud, waste, or
abuse, MySafeWorkPlace. MySafeWorkPlace al-
lows any FEC contractor and/or FEC employee to
report fraud, waste, or abuse via telephone with a
MySafeWorkPlace operator or a direct online sub-
mission. The complainant has the option of remain-
ing completely anonymous or providing their contact
information. This system also gives the complain-
ant the ability to anonymously respond to follow-up
questions from the OIG. For details regarding the
FEC OIG’s new hotline system, MySafeWorkPlace,
see the section entitled OIG Hotline Information
(starting on page 9).

Regarding OIG investigations, the OIG opened one
(1) investigation during this semiannual reporting
period and also closed (1) investigation. The inves-
tigation that was closed during this reporting period
involved the misuse of Transit Subsidy benefits by
an FEC employee. For further details regarding the
OIG’s investigation, see the section entitled OIG
Investigations (starting on page 11).




2
April 1, 2011 - September 30, 2011




                              the federal election commission



                                         In 1975, Congress created the Federal Election
                                         Commission to administer and enforce the Federal
                                         Election Campaign Act (FECA). The duties of the
                                         FEC, an independent regulatory agency, are to dis-
                                         close campaign finance information; enforce the pro-
                                         visions of the law; and oversee the public funding of
                                         Presidential elections.

                                         The Commission consists of six members who are
                                         appointed by the President and confirmed by the
                                         Senate. Each member serves a six-year term, and
                                         two seats are subject to appointment every two
                                         years. By law, no more than three Commissioners
                                         can be members of the same political party,
                                         and at least four votes are required for any offi-
                                         cial Commission action. The Chairmanship of the
                                         Commission rotates among the members each year,
                                         with no member serving as Chairman more than
                                         once during his or her term. Currently the FEC has
                                         a full complement of Commissioners – Cynthia L.
                                         Bauerly, Chair; Caroline C. Hunter, Vice Chair; and
                                         Commissioners Donald F. McGahn II; Matthew S.
                                         Petersen; Steven T. Walther; and Ellen L. Weintraub.




                                                                                             3
                                                                  Office of Inspector General Semiannual Report to Congress




                                       Office of Inspector General



The Inspector General Act of 1978 (P.L. 100-504),             The OIG welcomed Shellie Purnell-Brown (pictured)
as amended, states that the Inspector General                 to the OIG staff in August 2011. Mrs. Purnell-Brown
is responsible for: 1) conducting and supervis-               is a certified public accountant with over 20 years
ing audits and investigations relating to the Federal         of experience in the private sector. She has spent
Election Commission’s programs and operations; 2)             most of her career in internal auditing but also held
detecting and preventing fraud, waste, and abuse              various positions in finance and accounting. Shellie
of agency programs and operations while providing             has a background in several industries which include
leadership and coordination; 3) recommending poli-            telecommunications and consumer goods. The
cies designed to promote economy, efficiency, and             OIG's former Senior Auditor, Mrs. Irene B. Porter,
effectiveness of the establishment; and 4) keeping            resigned from the FEC OIG in March 2011 in order
the Commission and Congress fully and currently               to assume greater responsibilities with the Federal
informed about problems and deficiencies in FEC               Housing Finance Agency OIG.
agency programs and operations, and the need for
corrective action.




                       Inspector General Lynne A. McFarland (left) pictured with new OIG
                       auditor Shellie Purnell-Brown




4
April 1, 2011 - September 30, 2011




                                                               OIG Audit Activity



 Audit of the Federal Election Commission’s               LSC also completed the interim testing phase dur-
 Fiscal Year 2011 Financial Statements                    ing this semiannual period. The OIG provided as-
                                                          sistance to the auditors in completing the new audit
 Assignment Number: 	 OIG – 11-01                         step of reviewing the controls over copyright soft-
                                                          ware. Specifically, the OIG assisted in retrieving
 Status:	 In Progress                                     the proper audit documentation from management
                                                          for the auditors to review. In addition, the auditors
 The OIG exercised another contract option year with      and OIG auditor met with the Chair and Vice Chair
 Leon Snead & Co. (LSC) to conduct the FEC’s an-          of the Commission to fulfill the requirements of
 nual financial statement audit. The OIG and LSC          SAS 114: Communication with Those Charged with
 held the audit entrance conference for the FEC’s         Governance. The auditors provided the Chair and
 2011 financial statement audit on April 27, 2011.        Vice Chair with an explanation of their audit role and
 Audit work commenced on May 16, 2011 and LSC             responsibilities, an update regarding the progress of
 has completed the planning phase; review and eval-       the audit, and a summary of the audit issues identi-
 uation phase; and interim testing.                       fied and provided to management. At the completion
                                                          of the interim testing phase, the OIG reviewed LSC’s
 The OIG approved LSC’s planning documents and            interim audit workpapers.
 audit program for the 2011 financial statement au-
 dit. The planning phase consisted of LSC briefing        The OIG also reviewed the notice of findings and
 the OIG on any changes to the audit plan from the        recommendations (NFRs) prior to distribution to
 prior year, new or additional audit steps included in    management by the auditors. The review and evalu-
 the audit plan, and any changes made due to new          ation phase, and interim testing phase, identified
 requirements and/or standards for the 2011 finan-        twelve (12) audit issues that were provided to man-
                                                          agement as NFRs. The auditors will begin final test-
 cial statement audit. This year, the auditors included
                                                          ing in October 2011 and status meetings will be held
 a more detailed review of the FEC’s intragovern-
                                                          weekly during the month of October. The final audit
 mental receipts and reconciliations to adhere to
                                                          report is scheduled to be finalized and released by
 the Department of Treasury financial management
                                                          November 14, 2011.
 guidance. In addition, LSC also added audit test-
 ing steps to review the FEC’s controls over copyright
 software.

 During the audit review and evaluation phase, LSC
 followed up with management regarding the status
 of prior year findings and recommendations. Further,
 LSC reviewed FEC’s compliance with applicable
 laws and regulations and the existence and effec-
 tiveness of internal controls. Status meetings were
 held bi-weekly with the auditors and FEC manage-
 ment to discuss audit issues and provide an update
 of the audit progress.


                                                                                                              5
                                                            Office of Inspector General Semiannual Report to Congress




                                 OIG Audit Follow-up Activity



2010 Follow-Up Audit of Procurement and                 During the testing phase, CBH reviewed:
Contract Management
                                                          •	 contract files for compliance with the Federal
Assignment Number:	     OIG – 10-02                          Acquisition Regulation; FEC procurement
                                                             policies and procedures; and federal laws and
Status:	 Released June 2011                                  regulations;
http://www.fec.gov/fecig/documents/                       •	 held interviews with FEC employees who were
ProcurementandContractManagement2010.pdf                     identified as Contracting Officer Technical
                                                             Representatives (COTRs) and Points of Contact
In September 2010, the OIG awarded a contract to
                                                             (POCs) regarding their specific roles and re-
the auditing firm of Cherry, Bekaert & Holland (CBH)
                                                             sponsibilities for FEC contracts; and
LLP to conduct a follow-up audit of the OIG’s 2008
Audit of Procurement and Contract Management -            •	 discussed with management preliminary issues
OIG-08-02. The objective of the audit follow-up re-          identified throughout audit testing.
view was to determine whether each of the nine (9)      The auditors finalized all audit steps and provided a
audit findings contained in the 2008 audit report had   draft report to management for review and comment.
been fully resolved.                                    The final 2010 Follow-up Audit of Procurement and
                                                        Contract Management report was released by the
At the beginning of the audit, the OIG held a meet-     OIG on June 9, 2011. The auditors concluded that
ing with the CBH auditors on September 27, 2010 to      twelve (12) of the 2008 audit’s fifteen (15) recom-
discuss the general working arrangements and pro-       mendations were still unresolved and several new
vide background information for the follow-up audit.    recommendations were added to address new weak-
A formal entrance conference with key FEC person-       nesses. This audit follow-up shows that the FEC’s
nel responsible for procurement activities was held     procurement function continues to experience great
on October 14, 2010. After which, the CBH audi-         risk and has made little progress since 2008 to ad-
tors completed the following planning steps, among      dress the findings in the initial performance audit.
others: 1) reviewed current and prior FEC procure-
ment policies and procedures; 2) interviewed the
FEC Contracting Officer on several occasions; and
3) reviewed a sample of procurement files in order
to gain an understanding of current procurement
processes and develop a detailed audit plan. The
auditors submitted draft audit plans to the OIG and a
final audit plan was approved on March 3, 2010.

The contractors then selected an audit sample and
commenced detailed testing to determine whether
the 2008 audit recommendations had been fully
implemented.




6
April 1, 2011 - September 30, 2011




                                                                  OIG INSPECTIONS



 Kastle Key Inspection                                    the status of open items and potential inspection
                                                          findings.
 Assignment Number:	         OIG –11-02
 Status:	 In Progress                                     The Kastle key inspection testing is scheduled to
                                                          be completed in October 2011 and a report is-
                                                          sued shortly thereafter. The OIG is confident this
 The OIG’s inspection of the Kastle key system com-       inspection will provide valuable information to the
 menced during this reporting period. Kastle is the       Commission and management to ensure inter-
 building security system that is utilized to control     nal controls over the FEC’s Kastle key function are
 physical access to the FEC building during non-          strengthened and effective.
 working hours. This inspection is based upon the
 OIG’s annual workplan and previous OIG audits and
 investigations that identified weaknesses with the
 Kastle key system. The purpose of this inspection
 is to identify any management processes or controls      Security Inspection
 concerning the FEC’s Kastle key system that can
                                                          Assignment Number:	       OIG –11-03
 be improved, and provide management with recom-
 mendations to help strengthen this function.
                                                          Status:	 In Progress

 The scope of this inspection includes a review of        The OIG’s inspection of the FEC’s building security
 the internal controls over the Kastle key system and     contract commenced during this reporting period.
 the overall process for managing Kastle keys. The        Physical security and access control for the FEC
 inspection will include a review of program docu-        building at 999 E Street, NW, Washington, DC, is
                                                          covered by a contract (the “Contract”) with a con-
 mentation and an assessment of the adequacy of
                                                          tract guard company (the “Contractor). The purpose
 policies and procedures for managing the Kastle key
                                                          of this inspection is two-fold. The first purpose is to
 system. In addition, inspection testing will determine
                                                          review the Contract, policies and procedures, stand-
 if internal controls necessary to detect and prevent
                                                          ing orders, and guard facilities to clarify responsibili-
 unauthorized keyholders, and misuse of FEC issued
                                                          ties and authorities. This goal is informational and
 Kastle keys, are operating effectively.
                                                          intended to provide FEC management with a basic
 The OIG held an entrance conference on August 3,         understanding of the responsibilities and authorities
 2011 to provide management with an understand-           of the parties to and beneficiaries of the Contract.
 ing of the purpose, scope, and inspection plan for       The second purpose is to determine compliance
                                                          with selected Contract provisions, policies and
 the Kastle key inspection. The OIG reviewed the
                                                          procedures.
 Kastle key policies and procedures and is in the pro-
 cess of completing detailed testing. As of the end
                                                          The completed inspection will encompass the
 of this reporting period, the OIG planned a meet-
                                                          Contract; relevant policies, procedures, and stand-
 ing in October 2011 with the Administrative Services
                                                          ing orders concerning the Contract, guards and
 division manager and program staff to discuss


                                                                                                                 7
                                                         Office of Inspector General Semiannual Report to Congress




Contractor; types of routine and incident logs, forms
and reports kept or filed by the guards or Contractor;
the selection and training of guards; duties, respon-
sibilities and authority of the guards and Contractor;
lines of authority and communication, and chain-of-
command, for the guards and Contractor; and the
roles and responsibilities of all FEC offices and per-
sonnel and non-FEC entities concerning the guards
and Contractor.

The 2011 security inspection is scheduled to be
completed during the next reporting period.




8
April 1, 2011 - September 30, 2011




                                               OIG hotline Information



 The OIG hotline exists to enable FEC employees,          existing priorities, commitments, and resources of
 FEC contractors, and the public to have direct and       the OIG. Under this policy, hotline complaints are
 confidential contact with the OIG. The OIG hotline       classified as either high or low priority complaints.
 had until recently consisted primarily of an email ad-   High priority complaints are investigated and low
 dress, and telephone number, which is answered           priority complaints are either closed with no action
 during normal business hours, and utilizes voice-        or referred to the appropriate official for possible fur-
 mail after hours and on weekends. On September           ther review. Hotline evaluation decisions are made
 20, 2011, the OIG launched a new hotline service         by the Chief Investigator, with concurrence from the
 offered through a contractor. The new OIG hotline        Deputy IG.
 service allows employees and contractors to file a
 complaint using either a toll free telephone number      During this semiannual reporting period, two (2)
 that is answered by a live operator twenty-four (24)     new hotline complaints were opened and one (1)
 hours a day, including nights and weekends, or a         hotline complaint was closed and merged into an in-
 web-based complaint form. The new OIG hotline            vestigative case. The OIG has two (2) open hotline
 service is available only for use by FEC employees       complaints as of the close of this reporting period,
 and contractors. The public, as well as FEC employ-      including one (1) that was opened prior to the begin-
 ees and contractors, may still make a hotline com-       ning of this reporting period.
 plaint through the main telephone number, the OIG
 email account, the U.S. mail, facsimile, among other     The OIG frequently receives reports and allegations
 methods.                                                 which are misdirected complaints that should have
                                                          been routed to the Office of Complaints and Legal
 All allegations or referrals of fraud, waste, abuse,     Administration within the FEC’s Office of General
 mismanagement, and misconduct involving FEC              Counsel (OGC), are outside the jurisdiction of the
 employees, contractors, programs, operations,            OIG or the FEC, or are facially unsubstantiated,
 property, or funds received through any means are        meritless or invalid. For example, Section 437g
 termed “hotline complaints” per OIG policy. Once a       of the Federal Election Campaign Act of 1971, as
 hotline complaint has been received, a preliminary       amended (FECA), sets forth strict requirements for
 inquiry is conducted to determine whether the hot-       reporting alleged violations of FECA, and FEC regu-
 line complaint will be closed with no further action     lations direct that such complaints be processed
 taken, referred to management or another agency,         through OGC; still, the OIG regularly receives com-
 or an investigation by the OIG will be initiated.        plaints of alleged FECA violations, many of which
                                                          are not statutorily compliant. Reviewing and, where
 The OIG considers many factors when evaluating           appropriate, responding to these reports and al-
 whether to open an investigation based on a hot-         legations when aggregated can entail a significant
 line complaint, and acknowledges that every hotline      amount of staff time and effort, despite the fact that
 complaint received by the OIG cannot be investi-         they are not valid hotline complaints.
 gated and in many cases do not merit investiga-
 tion. OIG policy requires that hotline complaints be     In order to capture and document these hotline con-
 evaluated on certain criteria, including the merits of   tacts, the OIG has created a category for “hotline in-
 an allegation, the availability of evidence, and the     quiries” that do not meet the criteria for hotline com-
                                                          plaints. For this reporting period, the OIG received


                                                                                                                  9
                                                         Office of Inspector General Semiannual Report to Congress




approximately six thousand nine hundred and
seventeen (6,917) hotline inquiries. Approximately
six thousand nine hundred and ten (6,910) con-
cerned allegations of improprieties with a Wisconsin
Supreme Court election and were clearly outside the
jurisdiction of the OIG. Two (2) of the hotline inqui-
ries were referred or redirected to other FEC offices,
and one (1) was referred or redirected to another
agency. No further action was taken in four (4) of
the hotline inquiries.




10
April 1, 2011 - September 30, 2011




                                       OIG investigations



                                     OIG investigations seek out facts related to allega-
                                     tions of wrongdoing. OIG investigations may ad-
                                     dress administrative, civil, and criminal violations of
                                     laws and regulations. The subject of an OIG inves-
                                     tigation can be any FEC employee, an FEC con-
                                     tractor, consultant, or a person or entity involved in
                                     alleged wrongdoing affecting FEC programs and
                                     operations.

                                     The OIG conducts a detailed examination or inquiry
                                     into issues deemed appropriate for investigation. At
                                     the conclusion of an OIG investigation, the OIG pre-
                                     pares a report that sets forth the allegations and an
                                     objective description of the facts developed during
                                     the investigation.

                                     As of the end of the semiannual reporting peri-
                                     od, there is one (1) open investigation, which was
                                     opened during the reporting period, and one (1)
                                     investigation was closed. The closed investigation
                                     involved allegations that an employee collected tran-
                                     sit subsidy benefits to which the employee was not
                                     entitled through a SmarTrip account, and improperly
                                     used transit subsidy benefits to pay for parking, be-
                                     tween September 2007 and July 2009. The inves-
                                     tigation substantiated the allegation, and a Report
                                     of Investigation was issued to the Commission. The
                                     employee received an oral admonishment, agreed
                                     to repay $805 in improperly collected and used tran-
                                     sit subsidy benefits, and agreed to monitoring of the
                                     employee’s SmarTrip account.




                                                                                          11
             Office of Inspector General Semiannual Report to Congress




     Additional OIG Activity



        Besides conducting audits, inspections, and investi-
        gations, the OIG performs, and is involved in an ar-
        ray of additional projects and activities. As required
        by the Inspector General Act of 1978, as amend-
        ed, all legislation compiled by the Commission’s
        Congressional Affairs office is reviewed by the
        Inspector General.

        The Inspector General also reviews and provides
        comments, when appropriate, on legislation provid-
        ed by the Council of Inspectors General on Integrity
        and Efficiency (CIGIE) Legislative Committee. In
        addition, the Inspector General routinely reads all
        Commission agenda items. Listed below is an ex-
        ample of the OIG’s additional activity:

          •	 During this reporting period, the OIG responded
             to Representative Darrell Issa’s annual corre-
             spondence regarding outstanding recommenda-
             tions. The OIG compiled a spreadsheet listing
             all outstanding recommendations and forward-
             ed the results to Representative Issa’s office.
             Overall, the FEC has agreed with the major-
             ity of recommendations contained in our audit
             reports. There is still some work to be done
             in ensuring the recommendations are imple-
             mented in a timely manner, but we are working
             with management to assist them in establish-
             ing an effective procedure that sets time frames
             for completion and keeps the Commission in-
             formed of their progress. The OIG’s report to
             Representative Issa included 171 open recom-
             mendations that have yet to be implemented by
             the FEC. The IG’s report noted that 53 of the
             171 recommendations are less than six months
             old.




12
April 1, 2011 - September 30, 2011




           Council of the Inspectors General on
         Integrity and Efficiency (cigie) Activity


                                     The Inspector General continues to be very
                                     involved in CIGIE. She is a member of the
                                     Executive Council, which is composed of the
                                     Chair, Vice Chair, the past Vice Chair of the PCIE,
                                     all Committee Chairmen, and one member ap-
                                     pointed by the Chair. The Executive Council pro-
                                     vides guidance on CIGIE initiated projects, the op-
                                     erating plans for each fiscal year, and the standing
                                     up of the CIGIE and the training academies. The
                                     Council meets monthly to discuss issues that will
                                     affect CIGIE.

                                     The Inspector General also Co-Chairs the
                                     Inspector General Candidate Recommendation
                                     Panel with the Justice Department Inspector
                                     General. This panel is charged with making rec-
                                     ommendations of qualified candidates to the White
                                     House and heads of various federal agencies to be
                                     considered for vacant Inspector General positions.

                                     The Inspector General is also Vice Chair of the
                                     Professional Development Committee. This com-
                                     mittee is charged with ensuring there is strong, rel-
                                     evant training for the Inspector General community
                                     and provides advice and guidance to the Executive
                                     Director of the CIGIE Training Institute.




                                                                                        13
                                                                Office of Inspector General Semiannual Report to Congress




                                                                              OIG Contacts


The table below indicates the total amount of contacts received by the Office of Inspector General for the past
six months – April 1, 2011 through September 30, 2011.

These contacts were made through various sources such as telephone calls, e-mails, faxes, U.S. mail, and per-
sonal visits to the OIG.


                            Total            OIG          No Action        Forwarded
                           Contacts         Action        Necessary        for Action

                             1,906             45          1,834                 27




14
April 1, 2011 - September 30, 2011




                                              List of Training, Meetings
                                                        and Conferences

   The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the
   Inspector General and/or the OIG staff for the period April 1, 2011 – September 30, 2011:

 MEETINGS:
                       Host / Sponsor                                       Topic / Subject

                                                              Monthly Meetings

                         Council of Inspectors General on     Executive Council Meetings
                                   Integrity and Efficiency   Professional Development Committee Meetings
                                                              IG Recommendations Panel


         Council of Counsels to the Inspectors General        Monthly Meetings

          Assistant Inspector General for Investigations      Quarterly Meetings

                 Association of Government Accountants        Meet the Financial Management Policy Makers
                                                              (breakfast series with Congressman Issa
                       Interagency Ethics Council Meeting     IEC Meeting

                       Financial Statement Audit Network      Monthly Meetings


                                                              Weekly Director’s Meetings
                               Federal Election Commission    Finance Committee Meetings
                                                              Administrative Liaison Group Meetings



                                                              Bi-weekly Staff Meetings
                          FEC / Office of Inspector General
                                                              Brainstorming Session / Planning Day




                                                                                                               15
                                                              Office of Inspector General Semiannual Report to Congress




TRAINING/CONFERENCES:
                 Host / Sponsor                                         Topic / Subject

           Association of Government Accountants 2011 Annual Professional Development Conference

                      National Science Foundation Federal Audit Executive Council (FAEC) Conference

                      Office of Government Ethics 18th National Government Ethics Conference

                              American University New Leadership Development Program (session 1 of 2)

                                                    Introduction to Federal Auditing

     Council of Inspectors General on Integrity and IG Authorities Training
                                         Efficiency New IG Attorney Training
                                                    Annual GAO / Inspectors General Conference

 Association of Certified Fraud Examiners (ACFE) ACFE Annual Conference

                            Management Concepts Performance Auditing Training

                            Business Controls, Inc. MySafeWorkplace Hotline Service Provider Training

                                                    Introduction to Federal Budgeting
                            USDA Graduate School
                                                    Managing Multiple Priorities

                                      Career Track Management Skills for Support Staff

                                                    Privacy Training
                                                    No Fear Act Training
                                                    Computer Security Awareness Training
                                                    FEC System Access Refresher Training
                      Federal Election Commission
                                                    Invoice Tracking System Training
                                                    WebTA Timekeepers Conference
                                                    Directive 32 – Review of 2011 Anti- Harassment Policy
                                                    GovDelivery Training




16
April 1, 2011 - September 30, 2011




                                                       Reporting Requirements

       Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector
       General Act Amendments of 1988 are listed below:


       IG ACT                        DESCRIPTION                                                                PAGE

      Section 4(a)(2)                Review of Legislation                                                        12

      Section 5(a)(1)                Significant Problems, Abuses, and Deficiencies                              None

                                     Recommendations with Respect to Significant Problems, Abuses,
      Section 5(a)(2)                                                                                            None
                                     and Deficiencies
                                     Recommendations Included in Previous Reports on Which Corrective
      Section 5(a)(3)                                                                                             20
                                     Action Has Not Been Completed (Table III)
      Section 5(a)(4)                Matters Referred to Prosecuting Authorities                                 None

      Section 5(a)(5)                Summary of Instances Where Information was Refused                          None

      Section 5(a)(7)                Summary of Significant Reports                                               5

      Section 5(a)(8)                Questioned and Unsupported Costs (Table I)                                   18

      Section 5(a)(9)                Recommendations that Funds be put to Better Use (Table II)                   19

                                     Summary of Audit Reports issued before the start of the Reporting Period
      Section 5(a)(10)                                                                                           N/A
                                     for which no Management Decision has been made
      Section 5(a)(11)               Significant revised Management Decisions                                    N/A

                                     Management Decisions with which the Inspector General is
      Section 5(a)(12)                                                                                           None
                                     in Disagreement
      Section 5(a)(14)               Peer Review Results or Last Peer Review Date                                 21

      Section 5(a)(15)               Peer Review Performed on Another OIG                                         21




                                                                                                                       17
                                                       Office of Inspector General Semiannual Report to Congress




                                                                                          TABLE I


INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
(DOLLAR VALUE IN THOUSANDS)



                                                     Number       Questioned            Unsupported
                                                                    Costs                  Costs

A. For which no management decision has been made      0                  0                       0
   by commencement of the reporting period


B. Which were issued during the reporting period       0                  0                       0


     Sub-Totals (A&B)                                  0                  0                      0


C. For which a management decision was made during     0                  0                      0
   the reporting period


     (i) Dollar value of disallowed costs              0                  0                      0


     (ii) Dollar value of costs not disallowed         0                  0                      0


D. For which no management decision has been made      0                  0                      0
   by the end of the reporting period

E. Reports for which no management decision was        0                  0                      0
   made within six months of issuance




18
April 1, 2011 - September 30, 2011




                                                                               TABLE II


 INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
 FUNDS BE PUT TO BETTER USE


                                                                      Number     Dollar Value
                                                                               (In Thousands)
   A. For which no management decision has been made by the             0            0
      commencement of the reporting period

   B. Which were issued during the reporting period                     0            0

   C. For which a management decision was made during the re-           0            0
      porting period
       (i) dollar value of recommendations were agreed to by            0            0
           management

          based on proposed management action                           0            0

          based on proposed legislative action                          0            0

       (ii) dollar value of recommendations that were not agreed to     0            0
            by management
   D. For which no management decision has been made by the             0            0
      end of the reporting period
   E. Reports for which no management decision was made within          0            0
      six months of issuance




                                                                                           19
                                                                            Office of Inspector General Semiannual Report to Congress




                                                                                                            TABLE III


SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS OUTSTANDING FOR
MORE THAN SIX MONTHS
                                                                                       Recommendations
          Report Title                             Report                 Issue Date        Number          Closed          Open
                                                   Number
     Audit Follow-up Review of the
     FEC’s Employee Transit Benefit                OIG-08-03                 07/09             51               0            51
     Program

     Audit of the Commission’s                     OIG-09-02                 03/10             36               0            36
     Property Management Controls

     Federal Election Commission1                  OIG-10-01                 11/10             11               0            11
     2010 Financial Statement Audit
     2010 Follow-up Audit2 of
     Procurement and Contract                      OIG-10-02                 06/11             29               0            29
     Management

     2010 Follow-up Audit3 of                      OIG-10-03                 03/11             45               0            45
     Privacy and Data Protection




1 Follow-up on the 11 open recommendations are currently in progress as part of the FEC’s 2011 Financial Statement Audit.
2 The 29 open recommendations include 12 of the 15 recommendations from the 2008 Procurement and Contract Management
Performance Audit, OIG-08-02. Three recommendations were closed from the 2008 audit.
3 The 45 open recommendations include 16 of the 19 recommendations from the 2006 Inspection Report on Personally Identifiable
Information, OIG-06-04, and 2007 Performance Audit of Privacy and Data Protection, OIG-07-02. In total, three recommendations were
closed from the 2006 inspection and 2007 audit.



20
April 1, 2011 - September 30, 2011




                     APPENDIX A: PEER REVIEW RESULTS


 In accordance with the Dodd-Frank Wall Street            implicit in its audit function. Based on our assess-
 Reform and Consumer Protection Act of 2010               ments, we selected engagements and adminis-
 (Section 989C of P.L. 111-203), which amended            trative files to test for conformity with professional
 Section 5 of the Inspector General Act of 1978,          standards and compliance with the CFTC OIG’s
 OIGs are required to include in their semiannual re-     system of quality control.
 ports (SAR) to Congress the results of peer reviews      The results of our peer review of the CFTC OIG
 of their offices, as well as outstanding and not fully   resulted in recommendations for improvement.
 implemented recommendations from peer reviews            Consistent with the requirements of Section 989C
 the OIG received from another OIG, and outstand-         of P.L. 111-203, the FEC OIG is required to include
 ing and not fully implemented recommendations the        in our semiannual report a list of any outstanding
 OIG made in any peer review it performed for an-         and not fully implemented recommendations by the
 other OIG.                                               CFTC OIG. The FEC OIG contacted the CFTC IG
                                                          in October 2011 to obtain the status of the recom-
 An audit peer review was conducted on the FEC
                                                          mendations contained in the system review report
 OIG by the Federal Maritime Commission (FMC)
                                                          (peer review report). According to the CFTC IG,
 OIG during this reporting period. A final system re-
                                                          all recommendations contained in the peer re-
 view report was issued to the FEC OIG on May 5,
                                                          view report of the CFTC OIG were implemented
 2011 and we received a pass rating and there were
                                                          by September 30, 2011. In accordance with the
 no weaknesses identified in the system review re-
                                                          CIGIE’s peer review guidelines, it is not the respon-
 port that would result in recommendations for im-
                                                          sibility of the FEC OIG to verify whether the recom-
 provement. The peer review comment letter, that ac-
                                                          mendations have been implemented by the CFTC
 companied the system review report, did include five
                                                          OIG, and as such, the FEC OIG has not conducted
 findings and recommendations. However, none of
                                                          any follow-up review of the CFTC OIG to verify im-
 the findings were considered to be of sufficient sig-
                                                          plementation of corrective actions. (http://www.cftc.
 nificance to affect the peer review opinion expressed
                                                          gov/ucm/groups/public/@aboutcftc/documents/file/
 in the system review report. The FEC OIG has
                                                          oig_peerreview.pdf)
 implemented the five recommendations contained
 in the comment letter by addressing the weakness-
 es in new policies and procedures contained in the
 OIG Audit Manual that was updated and finalized
 on March 31, 2011 (http://www.fec.gov/fecig/docu-
 ments/PeerReview2010.pdf).

 The FEC OIG completed an audit peer review
 of the Commodity Futures Trading Commission
 (CFTC) OIG on March 31, 2011. Our peer review
 was conducted in accordance with Government
 Auditing Standards and guidelines established by
 the Council of the Inspectors General on Integrity
 and Efficiency (CIGIE). During our review, we in-
 terviewed CFTC OIG personnel and obtained an
 understanding of the nature of the CFTC OIG audit
 organization, and the design of the CFTC OIG’s sys-
 tem of quality control sufficient to assess the risks



                                                                                                                   21
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




22
April 1, 2011 - September 30, 2011




           APPENDIX B :




                     Federal Election Commission
                         Office of Inspector General




                                     Fiscal Year 2012
                                        Work Plan




                                      Lynne A. McFarland
                                       Inspector General




                                                           23
                         Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




24
April 1, 2011 - September 30, 2011




                                     TABLE OF CONTENTS

               A Message from the Inspector General-------------------------------------------- 1

               The Federal Election Commission--------------------------------------------------- 3

               Office of Inspector General------------------------------------------------------------ 3

               OIG Strategic Planning----------------------------------------------------------------- 4

               Annual Planning and Methodology Strategies---------------------------------- 5

               OIG 2012 Work Plan-------------------------------------------------------------------- 6

                       Audits/Inspections/Reviews-------------------------------------------------- 6

                       Investigative Program--------------------------------------------------------- 9

                       Special Projects------------------------------------------------------------------ 10




                                                                                                               25
                         Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




26
April 1, 2011 - September 30, 2011




                               FEDERAL ELECTION COMMISSION
                               WASHINGTON, D.C. 20463
                               Office of Inspector General


                                          A Message from the Inspector General


                  I am pleased to present to the Commission the Office of Inspector General’s
           (OIG) fiscal year (FY) 2012 Annual Work Plan. This work plan includes a
           description of audit, inspections, investigative and special projects planned for the
           FY. This plan also sets forth the OIG’s formal strategy for identifying priority
           issues and managing its workload and resources for FY 2012. Successful execution
           of this plan will enable the OIG to provide the highest quality work products to our
           stakeholders and to assist the FEC in meeting its strategic mission, goals and
           objectives.

                  The OIG substantially completed the work planned for FY 2011 in the audit
           and investigative programs, as well as special projects, notwithstanding the
           resignation of the OIG’s Senior Auditor in March 2011. Among the audits
           completed in FY 2011 were the FY 2010 annual financial statement audit, and two
           follow-up audits of procurement and privacy practices. These three audits yielded a
           combined total of 85 audit recommendations to improve FEC programs and
           operations. An audit peer review of my office was also conducted in FY 2011 and
           resulted in a pass rating, and my office also conducted a peer review of another
           federal OIG. Lastly, the OIG finalized a new audit manual in FY 2011.

                  In addition to the accomplishments in the audit program, the investigative
           program accomplished all of the work planned for 2011, to include responding to
           hotline complaints, OIG briefings to all FEC staff and the implementation of a new
           hotline service, among other projects. In addition to the investigative program, the
           OIG staff was actively involved in several professional working groups during the
           FY, to include the Council of the Inspectors General on Integrity and Efficiency
           Professional Development Committee, the Inspector General (IG) Candidate
           Recommendations Panel Committee, the IG Council of Counsels, among others. At
           the start of FY 2012, the OIG is fully staffed with six professional staff members,
           and therefore I anticipate the OIG will successfully complete the FY 2012 work plan
           that follows.

                 The U.S. Federal Election Commission’s (FEC) mission statement is “to
           prevent corruption in the Federal campaign process by administering, enforcing and
           formulating policy with respect to Federal campaign finance statutes.” 1 The OIG is
           committed to ensuring the integrity of FEC programs and operations. The
           development and continual updating of the OIG’s work plan is a critical aspect of
           accomplishing the OIG’s objectives to promote economy and efficiency in FEC

           1
            Federal Election Commission, Fiscal Year 2012 Congressional Budget Justification (Washington, DC, February
           14, 2011), 3.
                                                                                                                         1



                                                                                                                             27
                                                     Office of Inspector General Semiannual Report to Congress




     programs and to detect and prevent fraud, waste and abuse. Effective work
     planning ensures that audit and investigative resources are used effectively and
     efficiently. I look forward to a successful year of providing the highest quality of
     audit and investigative support and service to our stakeholders.




     Lynne A. McFarland
     Inspector General
     Federal Election Commission

     October 3, 2011




                                                                                                   2



28
April 1, 2011 - September 30, 2011




          The Federal Election Commission
                In 1975, Congress created the Federal Election Commission (FEC) to
          administer and enforce the Federal Election Campaign Act (FECA). The duties of
          the FEC, an independent regulatory agency, are to disclose campaign finance
          information; enforce the provisions of the law; and oversee the public funding of
          Presidential elections.

                The Commission is made up of six members, who are appointed by the
          President and confirmed by the Senate. Each member serves a six-year term, and
          two seats are subject to appointment every two years. By law, no more than three
          Commissioners can be members of the same political party, and at least four votes
          are required for any official Commission action. The Chairmanship of the
          Commission rotates among the members each year, with no member serving as
          Chairman more than once during his or her term. Currently the FEC has a full
          complement of Commissioners – Chair Cynthia L. Bauerly; Vice-Chair Caroline C.
          Hunter; Matthew S. Petersen; Ellen L. Weintraub; Steven T. Walther; and Donald
          F. McGahn, II.




          Office of Inspector General
                 The Inspector General Act of 1978 (P.L. 100-504), as amended, states that the
          Inspector General is responsible for: 1) conducting and supervising audits and
          investigations relating to the Federal Election Commission’s programs and
          operations; 2) detecting and preventing fraud, waste, and abuse of agency programs
          and operations while providing leadership and coordination; 3) recommending
          policies designed to promote economy, efficiency, and effectiveness of the
          establishment; and 4) keeping the Commission and Congress fully and currently
          informed about problems and deficiencies in FEC agency programs and operations,
          and the need for corrective action. The OIG budget request for FY 2012 was
          $ 1,062,237, an amount necessary to cover salaries and related expenses for six staff
          members, to include audit contracts and training. Exhibit 1 on the following page
          contains the OIG’s organizational chart.




                                                                                              3




                                                                                                  29
                                                                Office of Inspector General Semiannual Report to Congress




     Exhibit 1: FEC - OIG Organizational Chart

                                      Lynne A. McFarland

                                        Inspector General


                    Dorothy Maddox-Holland

                     Special Assistant to the
                       Inspector General



                                                Jon Hatfield

                                          Deputy Inspector
                                             General


       Shellie Purnell-Brown                     Mia Forgy                    J. Cameron Thurber

            Senior Auditor                      Staff Auditor              Counsel to the Inspector
                                                                          General/Chief Investigator




     OIG Strategic Planning
     Strategic Plan
            To enhance the effectiveness of the OIG and to ensure effective audit and
     investigative coverage of the Commission’s programs and operations, the OIG has a
     strategic plan that covers the period 2010 through 2015. Three major categories of
     OIG-wide goals and objectives are included in the strategic plan, which are as
     follows:

        •   OIG Products: To provide products and services that promote positive
            change in FEC policies, programs, and operations.

        •   OIG Processes: To develop and implement processes, policies, and
            procedures to ensure the most effective and appropriate use of OIG resources
            in support of our people and products.

        •   OIG Staff: To maintain a skilled and motivated work force in an
            environment that fosters accountability, communications, teamwork, and
            personal and professional growth.



                                                                                                              4




30
April 1, 2011 - September 30, 2011




                  In addition, strategies and performance measures for each objective are
           included in the strategic plan. For example, an OIG performance measure for
           audits includes using feedback from stakeholder surveys to continually improve the
           OIG’s audit process. At the conclusion of each audit/inspection/review, the OIG
           distributes a stakeholder survey to the program officials to solicit their feedback on
           the usefulness of the completed OIG assignment and their overall satisfaction with
           the process.

                  The OIG strategic plan will continue to evolve and will be reviewed and
           updated as necessary to ensure maximum effectiveness in meeting the changing
           needs of the FEC, consistent with the OIG’s statutory responsibilities. A detailed
           illustrative version of the OIG’s strategic plan can be found as an attachment of this
           Annual Work Plan.


           Annual Planning and Methodology Strategies

                  The planning methodology that we have adopted is built around the OIG staff
           brainstorming sessions held annually each summer, as well as soliciting and
           receiving feedback and ideas from stakeholders throughout the year. The annual
           work plans will, of course, require periodic updates to reflect changes, such as new
           priorities, as well as any changes in OIG resources. In the summer of 2011, the
           OIG conducted our fourth annual all-day brainstorming session. Similar to prior
           years, the ideas and suggestions generated from the 2011 brainstorming session
           were separated into categories to include audits, inspections, investigative program,
           and special projects, and then ranked (i.e., high, medium and low) according to
           priority.

                 In anticipation of the OIG annual brainstorming sessions, the OIG sends an
           e-mail to all FEC staff seeking input in formulating the OIG’s work plans.
           Historically, the OIG receives useful audit suggestions from FEC staff which are
           then considered during the annual planning process.

                  The OIG planning process is designed to yield work assignments that will
           identify opportunities for economy, efficiency and effectiveness in FEC programs
           and operations; and detect and prevent fraud, waste, abuse and mismanagement.
           The priority for conducting work assignments is based on (1) mandatory legislative
           requirements; (2) emphasis by the President, Congress, and the Commission; (3) a
           program’s susceptibility to fraud, manipulation, or other irregularities; (4) dollar
           magnitude or resources involved in the proposed area; (5) management needs
           identified through consultation with primary organization heads; (6) newness,
           changed conditions, or sensitivity of an organization; (7) the extent of outstanding
           issues resulting from prior audit coverage or review by the OIG or other oversight
           body; and (8) the adequacy of internal control systems in place for the program or
           other factors.



                                                                                                  5



                                                                                                      31
                                                   Office of Inspector General Semiannual Report to Congress




            Based on the results of the OIG’s planning process, the OIG’s annual work
     plan is divided into three primary categories:

        (1) Audits/Inspections/Reviews;
        (2) Investigative Program; and
        (3) Special Projects.


     OIG 2012 Work Plan
     AUDITS/INSPECTIONS/REVIEWS

            The term “audit” is used to describe work performed by auditors in examining
     financial statements, as well as work performed in reviewing compliance with
     applicable laws and regulations, the economy and efficiency of operations, and the
     effectiveness in achieving program results. These audits are prepared in accordance
     with generally accepted government auditing standards and vary in scope and
     complexity. Inspections and reviews are conducted in accordance with quality
     standards issued by the federal Inspector General community.

     For fiscal year 2012, the following audit related assignments are planned:


        1. Audit of the Federal Election Commission’s 2011 and 2012 Financial
           Statements.

           In accordance with the Accountability of Tax Dollars Act of 2002, the FEC is
           required to prepare annual financial statements in accordance with Office of
           Management and Budget (OMB) Circular No. A-136, Financial Reporting
           Requirements. The Chief Financial Officers Act of 1990, as amended,
           requires the FEC Inspector General, or an independent external auditor
           selected by the IG, to audit the agency financial statements.

           We will oversee the audit conducted by the OIG’s independent public
           accounting firm Leon Snead & Company. The OIG is responsible for 1)
           reviewing the auditor’s approach and planning of the audit; 2) evaluating the
           qualifications and independence of the auditors; 3) monitoring the work of
           the auditors; 4) examining audit documents and reports to ensure compliance
           with government auditing standards, and OMB Bulletin No. 07-04, Audit
           Requirements for Federal Financial Statements, as revised; and 5) other
           procedures the OIG deems necessary to oversee the contract and audit.

           Planned period of audit: May 2011 – November 2011;
                                    May 2012 – November 2012.




                                                                                                6




32
April 1, 2011 - September 30, 2011




               2. Quality Control Assessment of the FEC Audit Division.

                   The OIG will conduct a quality control assessment audit of the FEC Audit
                   Division. The primary objectives of the audit will be to ensure that the FEC
                   Audit Division’s quality control system is suitably designed and consistently
                   complied with to the extent necessary to reasonably ensure compliance with
                   audit standards and policies. For example, the audit will include a review of
                   the Audit Division’s audit workpapers and reports to ensure that auditors
                   consistently adhere to applicable auditing standards and policies; audit
                   conclusions are properly supported with sufficient and competent evidence;
                   auditors are properly trained; supervisory review of audits is timely
                   throughout the conduct of audits; and other requirements that contribute to
                   quality audits. Consistent with professional auditing standards and best
                   practices, external quality control assessments should be conducted on a
                   regular schedule, generally every three to five years, to ensure effective and
                   efficient audit practices and adherence to applicable audit standards by the
                   audit unit.

                   The FEC Audit Division is responsible for conducting audits of political
                   committees, and presidential campaigns and convention committees that
                   accept public funds. In addition, the Audit Division is responsible for
                   evaluating the Presidential primary candidates’ applications for matching
                   funds and determining the amount of contributions that may be matched
                   with federal funds.

                   Planned period of audit: November 2011 – February 2012.
               3. Audit of the Federal Election Commission’s Human Resources Office.

                   The OIG is planning to conduct a performance audit of the FEC’s Human
                   Resources (HR) Office during fiscal year (FY) 2012. The HR Office is a critical
                   component of the agency and is responsible for several important functions, to
                   include recruitment and retention of qualified staff; employee-employer
                   relations; administration of employee benefits; maintenance and processing of
                   personnel records; training; among other responsibilities. The Office of
                   Personnel Management (OPM) conducted a Human Capital Management
                   Evaluation of the FEC in 2009 and reported numerous weaknesses and
                   deficiencies. The purpose of the OIG’s audit will be to follow-up on the
                   weaknesses identified by OPM to ensure appropriate corrective action has been
                   taken by the FEC; and also focus on additional high-risk areas not covered by
                   the 2009 OPM evaluation.

                   Planned period of audit: March – June 2012.




                                                                                                    7



                                                                                                        33
                                              Office of Inspector General Semiannual Report to Congress




     4. On-Going Audit Follow-up.
       An important responsibility of the OIG is to follow-up on previously issued
       audit reports with outstanding audit recommendations. At the beginning of
       FY 2012, there were 130 outstanding audit recommendations representing
       four OIG audits. On-going audit follow-up during FY 2012 will consist of the
       following responsibilities: (1) review implemented audit recommendations to
       ensure the audit finding has been resolved; (2) review and comment on
       management’s corrective action plans that detail plans for resolving
       outstanding audit recommendations; and (3) conduct regular meetings
       throughout the FY with management to discuss progress to implement audit
       recommendations.

       Planned period of audit followup: On-going throughout FY 2012.

     5. Limited Scope Inspections.

       The OIG is planning to conduct four limited scope, or short-term, inspections
       of FEC programs during FY 2012. The goal of the short-term inspections will
       be to focus OIG resources on high-risk areas and provide rapid, up-to-date
       information to FEC management and the Commission on the efficiency and
       effectiveness of FEC programs. Two inspections started in FY 2011 on
       building security and internal controls over Kastle Keys will be completed in
       early FY 2012. In addition to these two inspections, an additional four
       inspections are planned for FY 2012.

       Planned period of inspections: FY 2012.

     6. Additional Work Assignments.

       Additional work assignments may be undertaken during FY 2012 based on
       available OIG resources, benefit to the agency, and other relevant factors.
       Priorities may be adjusted to reflect emerging issues during the FY.




                                                                                            8



34
April 1, 2011 - September 30, 2011




           INVESTIGATIVE PROGRAM

                  The OIG’s investigative program is intended to add value to the agency’s
           programs and operations by identifying and investigating allegations of fraud,
           waste, abuse and misconduct leading to criminal, civil, and administrative penalties
           and recoveries. Investigations typically originate as hotline complaints and may
           result in formal investigations if the OIG believes an investigation is warranted.
           The OIG’s investigative program also provides for initiatives designed to monitor
           specific high-risk areas within FEC programs and operations in order to proactively
           identify vulnerabilities in order to prevent fraud, waste and abuse.

           For fiscal year 2012, the following investigative assignments are planned:


               1. Manage Hotline Complaints and Investigation Caseload.

                   The OIG will respond to hotline complaints during the FY and report in a
                   timely manner to the appropriate officials on the resolution of hotline
                   complaints and investigations.

               2. Proactive Investigative Initiatives.

                   The OIG will initiate proactive reviews involving high-dollar and high-risk
                   programs and operations of the agency. In addition, the OIG has identified
                   several agency data systems, such as financial related systems, and is
                   pursuing direct read-access for OIG personnel as part of the OIG’s proactive
                   initiatives to prevent fraud, waste, abuse and misconduct.

               3. Investigative Peer Reviews.

                   The OIG will conduct an investigative peer review of another federal OIG in
                   FY 2012. The objective of the peer review is to determine whether internal
                   control systems are in place and operating effectively to provide reasonable
                   assurance that professional investigative standards are being followed.
                   Specifically, the FEC OIG peer review team will analyze existing policies and
                   procedures, conduct interviews with selected OIG management officials and
                   the investigative staff, and sample closed investigative files and other
                   administrative records, as warranted.

                   Planned period of peer review: January – March 2012.

                   In addition to a peer review of another OIG, the FEC OIG will participate in
                   the Council of Inspectors General on Integrity and Efficiency voluntary peer
                   review program for smaller OIGs, and the FEC OIG will be peer reviewed
                   during FY 2012.

                   Planned period of peer review: April – June 2012.
                                                                                                  9



                                                                                                      35
                                                    Office of Inspector General Semiannual Report to Congress




        4. Outreach.

           In FY 2011, the OIG conducted a series of OIG briefings with FEC division
           management and staff. The briefings were intended to educate FEC staff
           about the mission and authority of the OIG, and how to report fraud, waste,
           abuse or mismanagement to the OIG. In FY 2012, the OIG will continue our
           outreach program and conduct fraud briefings. The fraud briefings will
           provide information on the potential for fraud in FEC programs, such as
           travel, workers compensation, time and attendance, and government charge
           card activity. Discussion and education on fraud will help employees to
           identify and report suspected fraud and help reduce the number of fraud
           cases. The briefings will also discuss the OIG’s new hotline service launched
           in late fiscal year 2011.

           In addition, the OIG will continue the new employee orientation program to
           meet with all new employees to discuss the purpose and mission of the OIG.
           Lastly, the OIG will review and revise, as necessary, the OIG’s FECNet
           (intranet) site, public Web site, OIG brochure, fraud poster, and other
           outreach initiatives.


     SPECIAL PROJECTS
            In addition to the OIG’s audit and investigative responsibilities, the OIG will
     be responsible for numerous additional projects and activities during FY 2012. For
     example, as required by the Inspector General Act of 1978, as amended, all
     legislation compiled by the Commission’s Congressional Affairs Office is reviewed
     by the Inspector General. The Inspector General and staff also participate in
     several federal Inspectors General community working groups on topics related to
     law, audits, and investigations. All of these activities contribute to the success and
     mission of the OIG. Additional special projects will arise throughout the FY and the
     OIG will prioritize our workload to respond to the additional requirements.

     For fiscal year 2012, the following are examples of the special projects and activities
     planned by the OIG:


        1. Participate and Attend Professional Working Group and Other
           Meetings.

           The Inspector General or OIG staff will regularly attend the following
           Council of the Inspectors General on Integrity and Efficiency (CIGIE)
           professional working group meetings: CIGIE; Executive Council of CIGIE;
           CIGIE Professional Development Committee; IG Candidate
           Recommendations Panel Committee; IG Council of Counsels; Assistant
           Inspector General for Investigations; Federal Audit Executive Council; and
           Financial Statement Audit Network Group.

                                                                                                 10



36
April 1, 2011 - September 30, 2011




                   In addition to CIGIE professional working group meetings, the Inspector
                   General or staff will regularly attend FEC weekly senior level meetings, and
                   quarterly management and FEC town-hall meetings during the FY.

               2. Semiannual and Quarterly Reporting.

                   In accordance with the Inspector General Act of 1978, as amended, the OIG
                   will prepare and transmit to the Congress semiannual reports on the
                   activities of the OIG. Semiannual reports summarize OIG activities during
                   the immediately preceding six-month periods ending March 31st and
                   September 30th of each year. OIG semiannual reports are also provided to
                   the Commission. The OIG will also report on a quarterly basis to the
                   Commission on the activities of the office.

               3. Professional Development and Training.

                   The goal of the OIG’s training program is to provide cost effective training to
                   increase professional knowledge and proficiency, and ensure staff meet
                   continuing professional educational requirements. As a result, the OIG staff
                   will attend professional training and conferences during the fiscal year to
                   maintain and improve their knowledge, skills and abilities.




                                                                                                11



                                                                                                     37
                                                                                                               Office of Inspector General Semiannual Report to Congress




                                                          FEC / OIG Strategic Plan - Fiscal Years 2010 - 2015
     OIG Products: To provide products                          OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
     and services that promote positive                         processes, policies, and procedures to ensure                    work force in an environment that fosters
     change in FEC policies, programs, and                      the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
     operations.                                                resources in support of our people and                           personal and professional growth.
                                                                products.

     Objective A: Deliver timely, high-quality                                                                                   Objective A: Attract and retain well-qualified,
     products and services that promote                                                                                          diverse and motivated employees.
     positive change.                                             Objective A: Maintain a dynamic strategic
                                                                  planning process.                                              Strategy:
                                                                                                                                 - develop and implement a comprehensive recruiting program
     Strategy:                                                                                                                   that attracts a broad population with the knowledge, skills,
     - establish common OIG standards for communicating           Strategy:
                                                                                                                                 abilities, and expertise necessary to make meaningful
     results;                                                     - periodically review and update the strategic plan to
                                                                                                                                 contributions to the OIG;
     - conduct quality assurance programs;                        address changing OIG and FEC priorities; and,
                                                                                                                                 - assess employee satisfaction and develop strategies to
     - solicit appropriate internal and external review and       - identify factors that influence organizational change
                                                                                                                                 address employee concerns;
     comment;                                                     and develop short and long term plans to address them.
                                                                                                                                 - identify reasons for staff departures and develop plans to
     - comply with applicable statutory guidelines and                                                                           foster greater staff retention; and,
     standards;                                                                                                                  - adhere to EEO principles and strive to maintain a diverse work
     - set realistic and appropriate milestones.                                                                                 force.

     Objective B: Address priority issues
     and concerns of the Commission,
                                                                  Objective B: Plan and conduct cost-
     Management, and Congress.
                                                                  effective work that address critical issues                    Objective B: Provide training and
     Strategy:     Perform work that supports;                    and results in positive change.                                developmental opportunities to employees.
     - Federal Election Commission and Congressional
     priorities;                                                  Strategy:                                                      Strategy:
     - Strategic Management Initiative efforts;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
                                                                  activities;                                                    office needs as well;
     Focus OIG attention in the following areas of                - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
     emphasis:                                                    goals and priorities;                                          training are adhered to; and,
     - managing change;                                           - ensure that priorities of IG are effectively                 - maintain a reporting system to ensure that educational
     - resource allocation in relation to policy objectives;      communicated; and,                                             requirements are met.
     - delivery of client service;                                - identify specific targets for OIG review that are the most
     - causes of fraud and inefficiency; and,                     cost-effective
     - automation and communication.



                                                                  Objective C: Identify customer needs and
                                                                  provide products and services to meet
     Objective C: Follow-up and evaluate                          them.                                                          Objective C: Assess, recognize, and reward,
     results of OIG products and services to                                                                                     when possible, performance that contributes to
     assess their effectiveness in promoting                      Strategy:                                                      achieving the OIG mission.
     positive change.                                             - establish new customer feed back mechanisms;
                                                                  - consider and evaluate customers feedback when
                                                                                                                                 Strategy:
                                                                  planning and developing products and services;
     Strategy:                                                    - respond to Congressional inquires and request for
                                                                                                                                 - develop and articulate expectations for each employee's
     - Identify, as appropriate, lessons learned to improve                                                                      performance, including contributions in meeting the mission &
                                                                  briefing and testimony;
     timeliness and quality; and,                                                                                                goals of the OIG; and,
                                                                  - promote open exchange of ideas and information
     - conduct follow-up reviews to determine if intended                                                                        - ensure that rewards, when possible, are given in recognition of
                                                                  through outreach and through use of e-mail; and,
     results have been achieved.                                                                                                 exceptional employee performance.
                                                                  - receive, evaluate, and respond, as appropriate, to
                                                                  information received through the OIG hotline and other
                                                                  sources.


     Objective D: Satisfy customers,
     consistent with the independent nature                       Objective D: Implement efficient, effective,                   Objective D: Create and maintain a working
     of the OIG.                                                  and consistent resolution and follow-up                        environment that promotes teamwork and
                                                                  procedures.                                                    effective communication.
     Strategy:
     - establish professional communication and                   Strategy:                                                      Strategy:
     interaction with customers to promote the open               - ensure that IG follow-up procedures are followed and
                                                                                                                                 - ensure that communication between employees is open;
     exchange of ideas;                                           that management is aware of their role in the process;
                                                                                                                                 - provide employees with the tools and incentives they need to
     - incorporate customer feedback, as appropriate; and,        - establish common OIG standards for terminology, date
                                                                                                                                 adequately perform their duties.
     - be open to customer-generated solutions and                maintenance and communications.
     options.

                                                                  Objective E: Establish a positive and
                                                                  productive working environment.

                                                                  Strategy:
                                                                  - reengineer or streamline OIG procedures to achieve the
                                                                  most effective use of resources; and,
                                                                  - ensure that necessary technologies, evolving and
                                                                  otherwise, are made available to staff as needed.



     Performance Measures: Determine the
     timeliness and quality of products and                       Performance Measures: An annual audit                          Performance Measures: All employees meet
     services; their effectiveness in                             plan is issued; strategic plan is periodically                 the training requirements; all employees have
     promoting positive change; and, reach                        reviewed; and, necessary technology is                         performance standards; and all employees
     agreement with management on at least                        provided to staff to enable them to most                       meet the basic requirements for the position in
     90% of recommendations within six                            efficiently perform their duties.                              which they were hired to perform.
     months of the report issue date.                                                                                                                               12

                                                                                                                                                                                            12

38
                         Federal Election Commission
                           Office of Inspector General




Fraud Hotline
202-694-1015
                        or toll free at 1-800-424-9530 (press 0; then dial 1015)
                         Fax us at 202-501-8134 or e-mail us at oig@fec.gov
             Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463

Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to fraud, waste,
abuse, and mismanagement of agency programs and operations. Individuals who contact the OIG can remain
anonymous. However, persons who report allegations are encouraged to provide their contact information in the event
additional questions arise as the OIG evaluates the allegations. Allegations with limited details or merit may be held
in abeyance until further specific details are reported or obtained. Pursuant to the Inspector General Act of 1978, as
amended, the Inspector General will not disclose the identity of an individual who provides information without the
consent of that individual, unless the Inspector General determines that such disclosure is unavoidable during the
course of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                                    Together we can make a difference.
